Press Releases, Bloomfield, MI., October 09, 2012 - Former Pontiac Schools Executive Pleads Guilty to Defrauding a School District Receiving Federal Funding
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFFICE
EASTERN DISTRICT OF MICHiGAN
NEWS
Former Pontiac Schools Executive Pleads Guilty to Defrauding a School District Receiving Federal Funding
FOR IMMEDIATE RELEASE
October 09, 2012
The former head Associate Superintendent for Organizational Development and Human Resources for Pontiac Public Schools pleaded guilty today to charges of unlawful conversion of school district funds, United States Attorney Barbara L. McQuade announced today.
McQuade was joined in the announcement by Special Agent in Charge Robert Foley, III, Federal Bureau of Investigation.
Jumanne Sledge, 41, entered the guilty plea before United States District Court Judge Denise Page Hood.
Information presented to the court at the time of the plea established that on or about February 2, 2010, Sledge, without lawful authority, directed a subordinate at the Pontiac Public Schools to issue to him a check in the amount of $236,000.00 payable to "Leadership Academy," an entity controlled solely by Defendant Sledge. Sledge later provided a false and fraudulent invoice in the amount of $236,000.00. Sledge then later converted those funds to his own personal use.
Under the terms of the plea agreement, Sledge faces up to 30 months imprisonment. Although the agreement contains no specific amount of restitution, Sledge could be ordered to pay $236,000.00 in restitution. Sledge also did not contest forfeiture of his Jaguar automobile and approximately $34,000.00 in cash seized from his bank account.
"Violations of the public trust are serious crimes, but stealing money intended for school children is even more egregious." said United States Attorney McQuade. "We hope that prosecutions like this one will deter officials from breaching their duties to the public."
The case is being prosecuted by Assistant United States Attorney J. Michael Buckley, and was investigated by the Federal Bureau of Investigation and the United States Department of Education, Office of Inspector General.
Top
Printable view
Last Modified: 10/18/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov